Nos. 20-534, 20-536
IN THE

ALL SAINTS’ EPISCOPAL CHURCH (FORT WORTH),
Petitioner,
v.
THE EPISCOPAL DIOCESE OF FORT WORTH, et al.,
Respondents.
THE EPISCOPAL CHURCH, et al.,
Petitioners,
v.
THE EPISCOPAL DIOCESE OF FORT WORTH, et al.,
Respondents.
On Petitions for Writs of Certiorari
to the Supreme Court of Texas
BRIEF OF THE RUTHERFORD INSTITUTE
AS AMICUS CURIAE IN SUPPORT OF
PETITIONERS
John W. Whitehead
Douglas R. McKusick
THE RUTHERFORD
INSTITUTE
109 Deerwood Road
Charlottesville, VA 22911

Tejinder Singh
Counsel of Record
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tsingh@goldsteinrussell.com

TABLE OF CONTENTS
TABLE OF AUTHORITIES ........................................ ii
INTEREST OF THE AMICUS ................................... 1
SUMMARY OF ARGUMENT ..................................... 2
ARGUMENT ................................................................ 3
I.

The Neutral Principles Approach Is
Unworkable And Results In Unconstitutional
Interference In Church Governance..................... 4

II. A National Rule Of Deference Is Preferable
To The Current State-By-State Patchwork
Of Rules ............................................................... 11
CONCLUSION .......................................................... 13

ii
TABLE OF AUTHORITIES
Cases
Emp’t Div. v. Smith,
494 U.S. 872 (1990) .............................................. 8, 9
Hosanna-Tabor Evangelical Lutheran Church &
Sch. v. EEOC,
565 U.S. 171 (2012) ........................................ passim
Jones v. Wolf,
443 U.S. 595 (1979) ........................................ passim
Kedroff v. Saint Nicholas Cathedral of the
Russian Orthodox Church in N. Am.,
344 U.S. 94 (1952) ............................................ 4, 7, 9
Our Lady of Guadalupe Sch. v. Morrissey-Berru,
140 S. Ct. 2049 (2020) ...................................... 2, 4, 7
Park Slope Jewish Ctr. v. Stern,
491 N.Y.S.2d 958 (Sup. Ct. 1985) .......................... 10
Rector, Wardens & Vestrymen of Christ Church
in Savannah v. Bishop of Episcopal Diocese of
Ga., Inc.,
718 S.E.2d 237 (Ga. 2011) ..................................... 11
Singh v. Singh,
114 Cal. App. 4th 1264 (2004) ............................... 10
Watson v. Jones,
80 U.S. (13 Wall.) 679 (1872) ......................... passim

INTEREST OF THE AMICUS*
The Rutherford Institute is an international civil
liberties organization headquartered in Charlottesville,
Virginia. Its President, John W. Whitehead, founded
the Institute in 1982. The Institute specializes in
providing legal representation without charge to individuals whose civil liberties are threatened or violated,
and in educating the public about constitutional and
human rights issues. The First Amendment is an area
in which the Institute has been particularly active in
terms of legal representation and public education
alike.
This case falls squarely within the Institute’s interests. Indeed, the Institute filed an amicus brief in support of certiorari in this very case in 2014. The argument for certiorari has only grown stronger over time.
In both cases, 20-534 and 20-536, petitioners discuss
whether this Court should overrule Jones v. Wolf, 443
U.S. 595 (1979). The Court should grant certiorari to do
so, returning to the rule of deference that preceded
Jones. Such a standard would be more protective of the
important freedoms at stake, easier for the lower courts
to apply without unwarranted interference with the internal affairs of religious organizations, and more predictable and principled in its outcomes.

*

Counsel of record for the parties received timely notice of the
intent to file this brief and consent to its filing. No counsel for a
party authored this brief in whole or in part, and no party or counsel for a party made a monetary contribution intended to fund the
preparation or submission of this brief. No person or entity other
than amicus curiae, its members, or its counsel made a monetary
contribution to this submission.

2
SUMMARY OF ARGUMENT
This Court should grant certiorari to overrule or
substantially clarify Jones v. Wolf, 443 U.S. 595 (1979).
Experience and logic reveal that Jones is unworkable,
and that the shortcomings of the “neutral principles”
approach endorsed in that decision outweigh its benefits. The neutral principles approach has precipitated a
substantial and unwarranted intrusion by secular
courts into matters of religious doctrine and internal
church governance. That is because church property
disputes implicate more than simple ownership rights
to buildings and chattels. Especially when, as here,
these disputes arise out of a schism in the church over
doctrine, the critical question underlying the property
dispute is often: “Who is the true church?”
There is no adequate “neutral” or secular way to resolve that question. In most cases, the answer will turn
on the meaning of church documents—including constitutions, canons, and deeds to church property. Those
documents are necessarily imbued with religious significance. In hierarchical church organizations, church authorities must have final say over what they mean. Permitting a secular court to decide these issues without
deference to church authorities is tantamount to replacing church governance with the state or federal government, a proposition that threatens free exercise as well
as the establishment of religion.
For these reasons, the rule in Jones is difficult to
reconcile with this Court’s more recent decisions in Our
Lady of Guadalupe School v. Morrissey-Berru, 140
S. Ct. 2049 (2020), and Hosanna-Tabor Evangelical Lutheran Church & School v. EEOC, 565 U.S. 171 (2012),
and is an unusual departure from the deferential approach established in Watson v. Jones, 80 U.S. (13 Wall.)

3
679 (1872), which the Court adhered to for more than a
century thereafter. Certiorari is warranted to reconcile
the state courts’ aberrant approach to church property
disputes with the more respectful posture embodied in
a long line of this Court’s decisions.
This Court’s intervention is also warranted because
uniformity is imperative in this area of the law. Many
religious organizations span multiple states. But the
states have adopted several versions of the neutral principles doctrine, and varying express trust statutes and
rules. Compliance with this patchwork of rules is burdensome and serves no beneficial purpose. A nationwide rule of deference ensures that the task of compliance with the law does not substantially interfere with
free exercise, while minimizing entanglement between
secular institutions and religious ones.
ARGUMENT
In Jones v. Wolf, 443 U.S. 595 (1979), this Court endorsed a departure from its prior rule that secular
courts should defer to religious authorities—at least
with regard to hierarchical churches—in order to resolve disputes over church property. A bare majority of
the Court instead decided that courts could apply “neutral principles” of law, developed for use in secular property cases. See id. at 603. That approach is out of place
in church property disputes, and its application has undermined the separation of church and state, as well as
the freedom of churches to govern themselves. This
Court should grant certiorari to overrule Jones and
adopt a uniform rule of deference to churches in matters
of church governance.

4
I.

The Neutral Principles Approach Is Unworkable And Results In Unconstitutional
Interference In Church Governance.

1. Before Jones v. Wolf, courts in the United States
resolved church property disputes by deferring to the
church hierarchy. This deference had its genesis in Watson v. Jones, 80 U.S. (13 Wall.) 679, 727 (1872), where
this Court recognized that “whenever the questions of
discipline, or of faith, or ecclesiastical rule, custom, or
law have been decided by the highest of [the] church judicatories to which the matter has been carried, the legal tribunals must accept such decisions as final, and as
binding on them.”
In subsequent cases, this Court reiterated that
“Watson ‘radiates . . . a spirit of freedom for religious organizations, an independence from secular control or
manipulation—in short, power to decide for themselves,
free from state interference, matters of church government as well as those of faith and doctrine.’” HosannaTabor Evangelical Lutheran Church & Sch. v. EEOC,
565 U.S. 171, 186 (2012) (quoting Kedroff v. Saint Nicholas Cathedral of the Russian Orthodox Church in N.
Am., 344 U.S. 94, 116 (1952)) (ellipses in original). “This
does not mean that religious institutions enjoy a general immunity from secular laws, but it does protect
their autonomy with respect to internal management
decisions that are essential to the institution’s central
mission.” Our Lady of Guadalupe Sch. v. MorrisseyBerru, 140 S. Ct. 2049, 2060 (2020).
2. In Jones, this Court deviated from Watson, permitting courts to attempt to resolve church property disputes by applying secular principles instead of deferring
to the church. See 443 U.S. at 603. The Court thus permitted lower courts to scrutinize church documents for

5
language establishing a trust in favor of the general
church over the local one, while avoiding any inquiry
into religious doctrine. See id. at 604. The Jones majority recognized that this instruction would be difficult to
follow as courts interpreted deeply religious texts, including church constitutions. See ibid. But the majority
nevertheless speculated that it should be possible for
general churches, “[t]hrough appropriate reversionary
clauses and trust provisions,” to “specify what is to happen to church property in the event of a particular contingency, or what religious body will determine the
ownership in the event of a schism or doctrinal controversy.” Id. at 603. For example, the Court explained,
“the constitution of the general church can be made to
recite an express trust in favor of the denominational
church.” Id. at 606. The majority further predicted that
“[t]he burden involved in taking such steps will be minimal. And the civil courts will be bound to give effect to
the result indicated by the parties, provided it is embodied in some legally cognizable form.” Ibid.
As this case demonstrates, the Jones experiment
has failed on its own terms. Notwithstanding the adoption of the Dennis Canon, which was the Episcopal
Church’s direct reaction to Jones, courts have taken
varying positions regarding the general church’s claim
to property after a schism. See 20-534 Pet. 19-25 (comparing cases debating the significance of express trust
provisions); 20-536 Pet. 18-22 (same). The upshot is
that in some jurisdictions, church canons are not sufficient to govern the disposition of church property unless
a secular court deems those canons to be “embodied in
some legally cognizable form.” Jones, 443 U.S. at 606.
Religious organizations are thus required to draw up
their global governing documents to accommodate

6
secular legal standards—which themselves vary from
state to state. That burden, standing alone, is at odds
with the First Amendment’s religion clauses, as interpreted in Watson and its progeny.
More deeply, church property disputes are inherently matters of church government because they often
turn on who the church considers to be the rightful possessor of church property. It is difficult to imagine a
more important question to communities of faith. Although religious beliefs are individually held, they typically are exercised in community. Houses of worship
provide a space for adherents to receive ministry, exchange ideas, develop their convictions, and engage in
charitable works—all of which are critical to their exercise of religion. It is no surprise, then, that religious
spaces are revered by adherents, and are themselves
imbued with deep religious or spiritual significance.
Indeed, the issue is even more fundamental than
that because church property disputes typically are not
only about the ownership of the building, but control of
the pulpit as well. The outcome of these disputes will
determine who assumes the mantle of the true church.
The problem is especially acute when, as here, a property dispute arises after a dispute over religious doctrine. It is extremely difficult for courts to take sides in
the property dispute without at least giving the impression that they are taking sides in the underlying doctrinal conflict. No matter how courts try to engage in a
secular analysis, by picking the winners and losers—
sometimes at odds with the decision of the church itself—the state courts have effectively become parties to
these conflicts.
These types of conflicts—where the likelihood of entanglement is high—are precisely the sorts of contro-

7
versies that this Court has always placed in the hands
of church organizations, and not in secular courts. Indeed, even in Jones itself, the majority hoped out loud
that religious organizations themselves would provide
the answers, see 443 U.S. at 603, 606—but it nevertheless inexplicably authorized secular courts to secondguess those answers, and to reject them. In that critical
respect, Jones is internally inconsistent: it admonishes
courts to avoid intruding on matters of religious polity,
without acknowledging that church property disputes
almost always fall within that category.
The “neutral principles” approach thus presents a
real threat to free exercise. By rejecting a rule of deference and requiring secular courts to interpret religious
documents, including church constitutions, according to
secular principles, Jones does violence to the principal
of religious self-governance. It also unnecessarily entangles secular courts in matters of church governance
by permitting judicial decisions to supplant religious
ones.
3. Jones is also difficult to reconcile with subsequent authority—especially Our Lady of Guadalupe
School and Hosanna-Tabor, in which this Court recognized “a ministerial exception” to employment discrimination statutes.
Hosanna-Tabor was the first time the Court had
ever addressed the import of the First Amendment’s religion clauses to the selection of ministers. Without
precedent directly on point, the Court relied, tellingly,
on cases involving church property. Thus, to find that
churches have a right to select their ministers free from
secular interference, this Court first reaffirmed the
principles set forth in Watson and Kedroff: in order to
freely exercise their religions, churches must have

8
plenary authority to govern themselves. See 565 U.S. at
185-86.
Relying on these authorities, the Court found a
ministerial exception. It reasoned that:
Requiring a church to accept or retain an unwanted minister, or punishing a church for failing to do so, intrudes upon more than a mere
employment decision. Such action interferes
with the internal governance of the church, depriving the church of control over the selection
of those who will personify its beliefs. By imposing an unwanted minister, the state infringes
the Free Exercise Clause, which protects a religious group’s right to shape its own faith and
mission through its appointments. According
the state the power to determine which individuals will minister to the faithful also violates
the Establishment Clause, which prohibits government involvement in such ecclesiastical decisions.
565 U.S. at 188.
The Court also distinguished its holding in Employment Division v. Smith, that the “right of free exercise
does not relieve an individual of the obligation to comply with a valid and neutral law of general applicability
on the ground that the law proscribes (or prescribes)
conduct that his religion prescribes (or proscribes).” 494
U.S. 872, 879 (1990) (quotation marks omitted). The
Court acknowledged that the statute at issue in Hosanna-Tabor (the Americans with Disabilities Act of
1990) was “a valid and neutral law of general applicability.” 565 U.S. at 190. But it concluded that a different
result was warranted because “government interfer-

9
ence with an internal church decision that affects the
faith and mission of the church itself” presented special
concerns. Ibid. The Court never cited or discussed
Jones.
That omission, coupled with the Court’s rationale
for distinguishing Smith, is revealing. The very premise
of Jones is that neutral principles of law, developed for
secular property disputes, can adequately resolve controversies relating to church property. But if church
property disputes implicate critical matters of internal
church governance—and the petitions and supporting
amicus briefs demonstrate that they do—then there is
no reason, consistent with Hosanna-Tabor and the authorities cited therein, to continue to adhere to the neutral principles approach espoused in Jones. Equally telling, the government’s interest in Hosanna-Tabor—that
of preventing employment discrimination—was extremely strong, and yet this Court unanimously found
that it should yield when matters of church governance
are concerned. This case presents an ideal opportunity
for the Court to reconcile its cases by reaffirming what
it held only recently, and distancing itself from the contrary principles espoused in Jones.
4. Allowing Jones to stand also has implications
that reach far beyond church property disputes. Just as
Watson “radiates . . . a spirit of freedom for religious organizations” by recognizing their “power to decide for
themselves, free from state interference, matters of
church government,” Kedroff, 344 U.S. at 116, the opposite is true of the rule displacing Watson. The signal
sent by Jones is that religious organizations are not, in
fact, free to draft their governing documents according
to religious precepts, and that religious organizations’

10
governing bodies are not necessarily the final word on
matters of church polity.
To be sure, that signal is unintentional, as the
Jones majority disavowed any such intent. But it is
clear nonetheless. It would have been a relatively modest leap from the interpretation of Jones adopted by
some state courts to the conclusion that there is no ministerial exception in employment law. Likewise, Jones
could be taken as support for the proposition that a
court may inquire as to whether a religious official was
properly selected, e.g., as to whether elections for officials were held in conformity with state corporate law.
See, e.g., Singh v. Singh, 114 Cal. App. 4th 1264, 127576 (2004) (relying on Jones to affirm trial court order
requiring religious organization to conduct an election
in congregationalist organization). Or, under Jones, a
court might question a church’s membership decisions,
as long as it frames its questions in sufficiently secular
terms. See, e.g., Park Slope Jewish Ctr. v. Stern, 491
N.Y.S.2d 958, 960-61 (Sup. Ct. 1985) (relying on Jones,
inter alia, to hold that synagogue was forbidden from
amending membership policy).
Such decisions are a threat to the free exercise of
religion. Although Jones did not expressly authorize a
secular court to approve or disapprove of a religious doctrine, the neutral principles approach necessarily entangles secular courts in the interpretation and judgment of religious texts, and with the inner workings of
religious governance. Especially when, as here, the
matter concerns a hierarchical church organization,
there is no warrant for such interference. This Court
should grant certiorari to send a strong signal in favor
of deference to religious organizations.

11
II. A National Rule Of Deference Is Preferable
To The Current State-By-State Patchwork Of
Rules.
As petitioners explain, the states are irreconcilably
divided over the proper rule to apply to church property
disputes. Some states permit hierarchical religious organizations to create express trusts favoring the general church in their constitutions or canons, while others do not. In the states that do not, the requirements
differ from state to state, and the inquiries are often
fact-intensive and unpredictable.
That division means that national religious organizations cannot achieve what Jones promised: a simple,
minimally burdensome solution that ensures that
church property will end up in the right hands. Instead,
they must conform, state by state, with idiosyncratic
rules. It would be far better for this Court to restore the
national rule of deference that persisted before Jones.
That result would provide national and local churches
with predictability, cutting down on litigation and thus
reducing the overall entanglement of secular courts in
religious affairs.
A national rule of deference is, in fact, the only way
to solve this problem because many church deeds were
executed either prior to Jones, or prior to the date that
states like Texas, relying on Jones, switched away from
a deference regime. As the Supreme Court of Georgia
explained, if churches in those jurisdictions were to attempt to reconcile their conveyances with the shifting
norms of state law, they would have to examine all of
their deeds and corporate charters, amending and reissuing them as necessary—a burden that “would not be
minimal but immense.” Rector, Wardens & Vestrymen
of Christ Church in Savannah v. Bishop of the Episcopal

12
Diocese of Ga., Inc., 718 S.E.2d 237, 245 (Ga. 2011). The
effort and expense of such revisions would be daunting,
and would divert resources away from both the ministry
and from the many charitable projects that religious organizations undertake on a daily basis.
This foregoing discussion also highlights a critical
point: there is simply no way that the Jones majority
intended to precipitate the current wave of litigation
and confusion. Indeed, Jones did not even express a desire to alter the outcome in any particular church property dispute. Instead, Jones simply sought a more facially neutral way for courts to achieve the same results
that the deference doctrine had already achieved. But
whether one considers that objective laudable or not, it
is clear that the unintended consequences of the Jones
neutral principles rule have outweighed its benefits,
creating substantial burdens for religious organizations, and little, if any, commensurate benefit. The
Jones majority’s desire to create a more neutral, secular
regime for these disputes has backfired.
Fortunately, this Court can solve the problem with
the stroke of a pen. It should grant certiorari and clarify
that when, as here, the top of the religious hierarchy
speaks to an issue of church governance, secular courts
should defer to that judgment—even if that issue involves a church property dispute.

13
CONCLUSION
For the foregoing reasons, as well as those set forth
by petitioners, certiorari should be granted.
Respectfully submitted,
John W. Whitehead
Douglas R. McKusick
THE RUTHERFORD
INSTITUTE
109 Deerwood Road
Charlottesville, VA 22911

November 23, 2020

Tejinder Singh
Counsel of Record
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
tsingh@goldsteinrussell.com

